1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 20-20147
(4: 10-cr-00459)

UNITED STATES OF AMERICA, Plaintiff-Appellant

v.
WILMAR RENE DURAN GOMEZ, DefendantAppellee

Submitted: September 15, 2020
Decided: December 23, 2020
Appeal from the United States District Court
for the Southern District of Texas
Kenneth M. Hoyt, District Judge
Before: Barksdale, Elrod, and Ho, Circuit Judges.
Elrod, Circuit Judge:
In July 2010, Wilmar Duran-Gomez was indicted on
capital charges stemming from a 2006 double homicide
in southern Texas. Over the subsequent years, DuranGomez moved to continue his trial on numerous occasions and never objected to his co-defendants' or the
government's requests for delay-until August 2019,

2a

when he claimed that his Sixth Amendment right to a
speedy trial had been violated. The district court
agreed, dismissed all charges with prejudice, and ordered Duran-Gomez released.
Our court granted the government's emergency
motion to stay the district court's order and expedited
this appeal. Under the Supreme Court's balancing test
in Barker v. Wingo, 407 U.S. 514 (1972), we conclude
that Duran-Gomez's speedy trial right was not violated
and therefore REVERSE and REMAND the case for a
prompt trial.
I.
In November 2006, 1 Wilmar Duran-Gomez illegally
smuggled aliens into the United States. Two Honduran
men attempted to escape the warehouse where DuranGomez was holding them until he received their smuggling fees. As punishment, Duran-Gomez beat and tortured the men over the course of a week. Duran-Gomez
also sodomized one of the men with several objects and
directed someone to set the man on fire.
On November 14, 2006, the two men-Abelardo Sagastume and Hector (last name unknown) 2-succumbed
to their injuries and died. Duran-Gomez put their bodies
in the back of a pickup truck and drove to a field in
south Texas, where he unsuccessfully attempted to burn
the truck with the bodies inside. He then fled the scene.
1 We recount the factual history of the underlying crimes as
it is alleged in various records submitted on appeal, including the
indictments and the death-penalty recommendation materials submitted to the Attorney General of the United States.

We refer to him as Hector herein because his last name is
unknown.
2

3a

Sheriffs deputies discovered the bodies the following morning. A few days later, a confidential informant
told Immigration and Customs Enforcement ("ICE")
that Duran-Gomez directed an international aliensmuggling operation and that he had recently killed two
smuggled aliens. ICE soon learned that, after entering
the United States with a visa, Duran-Gomez committed
two crimes involving moral turpitude-rendering his
presence in the United States unlawful. 3 On November
21, 2006, Duran-Gomez was arrested for civil immigration violations.
A few days later, Duran-Gomez called his family
from the immigration detention center and asked them
to destroy evidence of his smuggling scheme. He was
subsequently charged with obstruction of justice, to
which he pleaded guilty in May 2007. In January 2011,
he was sentenced to 60 months of imprisonment for that
crime. Meanwhile, law enforcement officials continued
the homicide and smuggling investigations.
On July 1, 2010, the government indicted DuranGomez and several co-defendants with conspiring to
smuggle aliens into the United States and harboring aliens resulting in the deaths of Abelardo and Hector. On
January 10, 2017, Duran-Gomez and a co-defendant,
Efrain Rodriguez-Mendoza, were charged in a superseding indictment with the additional counts of kidnapping

3 Duran-Gomez's two previous convictions involving crimes
of moral turpitude are a 1994 misdemeanor shoplifting conviction
and a 2002 felony conviction of aggravated assault with a deadly
weapon in which he beat, threatened with a knife, and later raped
the victim.

4a

and hostage-taking resulting in the deaths of the two
men. 4
After a lengthy review process, the government informed Duran-Gomez that it would seek his death. Rodriguez-Mendoza was a fugitive at the time of the 2010
indictment and was not arrested until April of 2013. After capturing Rodriguez-Mendoza, the government initiated the death penalty review process, but it was protracted at least in part by Rodriguez-Mendoza's attempts to dissuade the government from seeking his
death based on an alleged intellectual disability. In February 2017, the government filed its Notice of Intent to
seek Rodriguez-Mendoza's death.
From when Duran-Gomez was indicted in July 2010
to when he moved to dismiss for speedy trial violations
in August 2019, he either moved or joined his codefendants in moving for continuances on seventeen different occasions:
(1) On July 29, 2010, a co-defendant moved to continue the trial. Duran-Gomez was unopposed
to the motion.
(2) On November 15, 2010, a co-defendant moved
to continue the trial. Duran-Gomez was unopposed to the motion.
4 First, Duran-Gomez is accused of conspiring to smuggle
aliens into the United States in violation of 8 U.S.C.
§ 1324(a)(l)(A)(v)(I). Second, he is accused of harboring aliens resulting in the deaths of Abelardo and Hector in violation of 8 U.S.C.
§§ 1324(a)(l)(A)(iii), 1324(a)(l)(B)(i), 1324(a)(l)(A)(v)(II), and 1324
(a)(l)(B)(iv). Third, he is accused of kidnapping resulting in the
deaths of Abelardo and Hector in violation of 18 U.S.C. § 1201(a)(l).
Finally, he is accused of taking Abelardo and Hector hostage, resulting in their deaths, in violation of 18 U.S.C. § 1203.

5a

(3)
(4)

(5)

(6)
(7)

(8)

(9)

(10)
(11)
(12)
(13)
(14)
(15)

On March 22, 2011, Duran-Gomez moved to
extend the pre-trial motions deadline.
On March 29, 2011, a co-defendant moved to
continue the trial. Duran-Gomez was unopposed to the motion.
On August 3, 2011, the district court granted a
co-defendant's motion to continue the trial.
Duran-Gomez was unopposed to the motion.
On November 7, 2011, Duran-Gomez moved to
extend the pre-trial motions deadline.
On November 22, 2011, a co-defendant moved
to continue the trial. Duran-Gomez was unopposed to the motion.
On January 17, 2012, the district court granted
a co-defendant's motion to continue the trial.
Duran-Gomez was unopposed to the motion.
On February 21, 2012, a co-defendant moved
to continue the trial. Duran-Gomez was unopposed to the motion.
On October 10, 2012, Duran-Gomez moved to
continue the trial.
On March 18, 2013, Duran-Gomez moved to
continue the trial.
On October 31, 2013, Duran-Gomez moved to
continue the trial.
On February 20, 2015, Duran-Gomez moved to
continue the trial.
On January 19, 2016, Duran-Gomez moved to
continue the trial.
On September 7, 2016, Duran-Gomez moved to
continue the trial.

6a

(16) On May 30, 2017, Duran-Gomez moved to continue a pre-trial motion deadline.
(17) On February 4, 2019, Duran-Gomez moved to
continue pre-trial motion deadlines.
In September 2018, Rodriguez-Mendoza filed a motion to sever his trial from Duran-Gomez's trial, which
the government opposed. Two months later, two Federal Public Defenders from the District of Maryland
joined Duran-Gomez's defense team 5 and subsequently
moved on February 8, 2019 to sever his trial from Rodriguez-Mendoza's trial. On March 18, 2019, the district
court granted Rodriguez-Mendoza's motion to sever,
thereby mooting Duran-Gomez's motion.
The government and Duran-Gomez's defense team
met in early May 2019 to discuss trial preparation and
deadlines. Duran-Gomez's counsel suggested continuing
the trial to January 2022, but the government expressed
a desire to have the trial in 2021. The district court later
adopted the parties' joint proposed schedule, setting trial for March 8, 2021.
But it was not to be. Just a few months later, on
August 26, 2019, Duran-Gomez moved to dismiss all
charges against him for purported violations of his Sixth
Amendment right to a speedy trial-the first time he
had ever raised the issue. After the district court received written memoranda and held a hearing on the
motion, it dismissed all charges with prejudice on March
5 Before the Public Defenders joined his defense team, Duran-Gomez was represented by Wendell Odom, Jr. and Neal Davis,
III. They still represent Duran-Gomez, along with the Public Defenders, except that Mr. Odom did not join in Duran-Gomez's brief
on appeal.

7a

12, 2020 and ordered Duran-Gomez released. Finding
that Duran-Gomez's speedy trial right attached in 2006,
the district court held that Duran-Gomez had been severely prejudiced by the delay, warranting dismissal of
all charges against him. The government timely appealed and filed an emergency motion in this court, requesting a stay of the district court's dismissal and release orders. Our court granted the government's motion and expedited this appeal, and we heard oral argument on September 15, 2020.
II.
We review de novo a district court's application of
the Barker factors. United States v. Molina-Solorio, 577
F.3d 300, 304 (5th Cir. 2009). A district court's factual
determinations regarding the speedy trial right are reviewed for clear error. United States v. Frye, 372 F .3d
729, 735 (5th Cir. 2004). Clear error exists only when we
have "a definite and firm conviction that a mistake has
been committed." United States v. Scroggins, 599 F .3d
433, 440 (5th Cir. 2010).
III.
The Sixth Amendment to the U.S. Constitution provides that "the accused shall enjoy the right to a speedy
... trial." U.S. Const. amend. VI. While "the ordinary
procedures for criminal prosecution are designed to
move at a deliberate pace," the "right of a speedy trial is
necessarily relative. It is consistent with delays and depends upon circumstances." United States v. Ewell, 383
U.S. 116, 120 (1966) (quoting Beavers v. Haubert, 198
U.S. 77, 87 (1905)). To determine whether the speedy
trial right has been violated, we balance Barkers four
factors: (1) length of delay, (2) reason for delay, (3) the
defendant's diligence in asserting the right, and (4)

8a

prejudice to the defendant. Barker, 407 U.S. at 530; see
also Molina-Solorio, 577 F .3d at 304.

A.
Barkers first factor, length of delay, functions as a
triggering mechanism. Barker, 407 U.S. at 530. In our
circuit, we examine the remaining three factors if the
trial has been delayed for at least one year. Goodrum v.
Quarterman, 547 F.3d 249, 257-58 (5th Cir. 2008). 6 Here,
the parties agree that full Barker analysis is triggered,
but they disagree as to the precise amount of delay. 7
Because Duran-Gomez's speedy trial right attached
no later than 2010, the delay (from indictment to dismissal) is, at the very least, greater than nine years. 8 This
6 In Barker, the Supreme Court alternatively described the
"triggering mechanism" as when the delay has become "presumptively prejudicial." 407 U.S. at 530. The "prejudice" that triggers
analysis of the remaining three Barker factors is distinct from
prejudice suffered by the defendant, which is the fourth Barker
factor. Id. at 532. See also Goodrum, 547 F.3d at 257-58, 260.

7 The district court held that the speedy trial right attached
at Duran-Gomez's December 2006 arrest for administrative immigration violations. The government contends that the right did not
attach until July 1, 2010, at the earliest, when Duran-Gomez was
indicted for conspiring to smuggle aliens and for harboring aliens
resulting in death. See Cowart v. Hargett, 16 F.3d 642, 645-46 (5th
Cir. 1994) (holding that a defendant's speedy trial right attaches
only when he is "formally charged with a crime or actually restrained in connection with that crime.") (quoting Dickerson v.
Guste, 932 F.2d 1142, 1144 (5th Cir. 1991)). We need not decide this
issue because the length of delay in either instance far exceeds the
one-year threshold required to trigger an analysis of the remaining
Barker factors.

The government invites us to extend Cowart by holding
that the speedy trial right is charge-specific, such that the speedy
trial "clock" begins anew with respect to additional counts charged
8

9a

factor weighs heavily against the government. MolinaSolorio, 577 F .3d at 305 (holding that a delay of "nearly
ten years" heavily favored the defendant).
B.
We now turn to the second factor, the reason for delay, and ask "whether the government or the criminal
defendant is more to blame." Vermont v. Brillon, 556
U.S. 81, 90 (2009) (quoting Doggett v. United States, 505
U.S. 647, 651 (1992)). Not all reasons for delay are assigned equal weight:
At one extreme, a deliberate delay to disadvantage the defense is weighted heavily against
the [government]. At the other end of the spectrum, delays explained by valid reasons or attributable to the conduct of the defendant weigh
in favor of the [government]. Between these extremes fall unexplained or negligent delays,
which weigh against the [government], but not
heavily.
Goodrum, 547 F.3d at 258 (quoting Cowart, 16 F.3d at
647) (internal citations omitted).
A defendant can likewise contribute to delay by, for
example, asking for continuances. Importantly, if he later claims a speedy trial violation, he "will not be heard
to complain of a lapse of time attributable to continuances he sought and received from the trial court." Nelson
in superseding indictments. We need not address this issue, for our
conclusion is the same regardless of whether Duran-Gomez's
speedy trial right attached in 2010 (the original indictment) with
respect to all counts or whether the right attached as to some
counts in 2010 and as to others in 2017 (the second superseding indictment).

10a

v. Hargett, 989 F.2d 847, 852 (5th Cir. 1993); see also
Robinson v. 11/hitley, 2 F.3d 562, 569 (5th Cir. 1993)
(weighing against a defendant his own motions for continuance). Sometimes, delay works to the defendant's
advantage, as when witnesses "become unavailable or
their memories ... fade." Barker, 407 U.S. at 521. Because "it is the prosecution which carries the burden of
proof[,]" a delay may mean that "its case will be weakened, sometimes seriously so." Id. Indeed, "[d]elay is
not an uncommon defense tactic." Id.; see also Brillon,
556 U.S. at 90 (recognizing "the reality that defendants
may have incentives to employ delay as a 'defense tactic"') (quoting Barker, 407 U.S. at 521).
Since his original indictment in 2010, Duran-Gomez
moved to continue his trial or various deadlines on ten
different occasions. His counsel certified that he was unopposed to seven of his co-defendants' motions for continuance, bringing the total continuances to which he
either sought or explicitly consented to seventeen. On
appeal, Duran-Gomez nevertheless argues that his motions for continuance should weigh against the government because, he says, the government's negligence
forced him to seek continuances. For example, DuranGomez argues that the continuances he sought during
Rodriguez-Mendoza's death-penalty review process
should not be weighed against him because in those motions he said that Rodriguez-Mendoza was "material to
Duran's defense-whether [Rodriguez-Mendoza] is a
trial co-defendant or one who will testify against Duran."
But Rodriguez-Mendoza's importance was not the
only reason Duran-Gomez asked to continue the trial. In
all ten of his motions for continuance, including the ones
made during Rodriguez-Mendoza's death-penalty review process, Duran-Gomez stressed his own counsel's

11a

independent need for delay. For example, he noted in
one of the motions he made during RodriguezMendoza's review process: "[C]ounsel would request ...
more time to continue the discovery and investigation
into the matters in this case as well as develop the necessary mitigation issues for punishment in this death
penalty case." In several other motions he filed while
awaiting the Rodriguez-Mendoza decision, DuranGomez noted that "[ d]efense counsel is still in the process of contacting witnesses, engaging experts, conducting a separate investigation, developing mitigation and
wrestling with budget constraints and requests." By
Duran-Gomez's own admission, therefore, he sought
these continuances to satisfy his own investigative and
preparatory needs.
Duran-Gomez urges us to weigh against the government the entire four years it took to complete Rodriguez-Mendoza's death-penalty review process. We note
again that Rodriguez-Mendoza's process was protracted
at least in part by his assertion of an intellectual disability and the extensive testing required to examine such a
claim. One of the reasons the speedy trial right "depends upon [the] circumstances" of the individual case is
that "many procedural safeguards are provided an accused." Ewell, 383 U.S. at 120 (quoting Beavers, 198
U.S. at 87).
Deciding whether it should seek the death penalty
for a defendant is one of the government's gravest responsibilities. When a defendant alleges that he has a
condition which would make his death at the government's hand unconstitutional, this task becomes even
weightier. The path to decision should be proportionately ruminative. "Death ... differs more from life imprisonment than a 100-year prison term differs from one of
only a year or two. Because of that qualitative differ-

12a

ence, there is a corresponding difference in the need for
reliability in the determination that death is the appropriate punishment in a specific case." Woodson v. North
Carolina, 428 U.S. 280,305 (1976).
Courts have recognized that a "requirement of unreasonable speed would have a deleterious effect both
upon the rights of the accused and upon the ability of
society to protect itself." Ewell, 383 U.S. at 120. "[B]oth
defendants and the public have an interest in a system
that is fair and reliable, which must often come at the
expense of haste." United States v. Ghailani, 733 F .3d
29, 41-42 (2d Cir. 2013). These principles of justice apply
to Duran-Gomez's death-penalty review process just as
they do to Rodriguez-Mendoza's.
Duran-Gomez also says that he was forced to wait
until the end of Rodriguez-Mendoza's process because
the government chose to "tether" their trials by charging them as co-defendants. Nothing prevented DuranGomez from asserting his right to a speedy trial, and
nothing kept him from attempting to effectuate that
right by moving to sever from Rodriguez-Mendoza,
something he did not do until February 2019. The district court signaled at several status conferences that it
would entertain severance motions because of how long
the case had lasted, and Duran-Gomez never took the
opportunity. Duran-Gomez made a calculated decision to
wait until the government decided whether it would seek
Rodriguez-Mendoza's death, apparently because he
thought the decision would play a "material" role in his
trial strategy. Plus, the delay allowed Duran-Gomez to
pursue a plea deal, something his lawyers called "the
best chance of saving [his] life."
Another of Duran-Gomez's arguments is based on
what he says was the government's negligent discovery

13a

methods in this case. Federal Rule of Criminal Procedure 16 requires the government to "make available for
inspection, copying, or photographing" certain discovery
materials, such as test results and the defendant's written or recorded statements. See Fed. R. Crim. P.
16(a)(l)(A)-(B), (D)-(F). Other prosecutorial materials
are not subject to discovery at all. See id. 16(a)(2).
From the inception of this case until early 2017, the
government operated under Rule 16 with what is called
an "open file" policy and announced at two status conferences-one in October 2012 and another in February
2014-that this was an "open file" case. Under this policy, various documents and discovery materials were
available for "inspection, copying, or photographing"
(per Rule 16) at the U.S. Attorney's Office. Oral argument at 23:08-24:17. Once in April 2011 and once in January 2012, a paralegal at the U.S. Attorney's Office emailed Duran-Gomez's counsel to let them know that
some CDs with discovery material on them were "available for pick-up at the U.S. Attorney's Office."
In addition to having discovery available under the
open file policy, the government proactively turned over
discovery to Duran-Gomez's counsel on two occasions. It
turned over about 8,000 pages of discovery in November
2010. Then, in 2017, after a new prosecutor joined the
case team, she rescanned and added Bates stamps to all
discovery materials for release to Duran-Gomez's counsel. These discovery materials totaled approximately
65,000 pages.
The new prosecutor then loaded the documents onto a flash drive and a CD and gave them to DuranGomez's counsel on January 31, 2017. Included in these
materials were several documents that the government
was not required to disclose under Rule 16, but never-

14a

theless could prove helpful to Duran-Gomez. Of the
65,000 pages, the parties were unable to definitively say
which pages had already been turned over to defense
counsel in the November 2010 disclosure, which pages
had been included on the discovery CDs that were
turned over in 2011 and 2012, which pages had already
been seen by defense counsel under the open file policy,
or which pages were made available for the first time in
2017. Oral Argument at 24:20-24:40. Thus, the government said at a later status conference that the prosecutor did these things out of "an abundance of caution,
[copying] everything that was in the office ... that was
already in the case file and available for inspection to
defense [counsel]."
On appeal, Duran-Gomez argues that the 2017 discovery disclosure contribut ed to the deprivation of his
speedy trial right and that the delay should weigh
against the government. He implies that the government should have explained exactly how an open file policy worked. He also says that his counsel was under the
impression that the government would let them know
every time new discovery became available.
This argument is unpersuasive for several reasons.
First, the government's open file policy in this case
complied with the plain words of Federal Rule of Criminal Procedure 16(a)(l)(B): "Upon a defendant's request,
the government must disclose to the defendant, and
make available for inspection, copying, or photographing" certain discovery materials. In fact, the open
file policy in this case apparently went above and beyond the requirements of Rule 16 because, before the
2017 disclosure, Duran-Gomez had not "requested"
many of the discovery materials that could be made
available to him under Rule 16(a)(l). And yet the government made them available anyway.

15a

Second, the government's e-mailing defense counsel
twice to let them know that CDs were available for
pickup does not invalidate its otherwise legitimate open
file policy-nor does it prove that the parties had an understanding that the government would do that every
time new materials became available.
Third, as to Duran-Gomez's argument that the government should have explained how the open file policy
worked, we cannot say that any delay arising from the
2017 disclosure should weigh heavily against the government-especially in light of the fact that DuranGomez mentioned needing time to process discovery in
only one of his two motions for continuance he made after the government handed over the 65,000 pages. The
motion that mentioned discovery did not relate to production delay but instead related to his new counsels'
need to "familiarize themselves with the large volume of
materials in this case"-despite two other lawyers already being on Duran-Gomez's defense team.
In this case, Duran-Gomez contributed substantially to the delay. He requested a slew of continuances. He
represented that he needed those continuances to investigate the issues, prepare his defense and mitigation,
attempt to make a plea deal with the government, and
"wait and see" if his co-defendants could serve a helpful
purpose in his own defense. In light of the specific facts
and circumstances of this case, we hold that the second
Barker factor weighs heavily against Duran-Gomez.
C.
Next, we consider the third factor, which is the defendant's diligence in asserting his right to a speedy trial. Barker, 407 U.S. at 531. The Supreme Court noted in
Barker that "[t]he more serious the deprivation, the
more likely a defendant is to complain." Id. Hence,

16a

whether a defendant has asserted (or failed to assert)
his right "is entitled to strong evidentiary weight" in our
analysis. Id. 'We emphasize that failure to assert the
right will make it difficult for a defendant to prove that
he was denied a speedy trial." Id. at 532.
An assertion of the right to a speedy trial is a "demand for a speedy trial." United States v. Frye, 489
F.3d 201, 211 (5th Cir. 2007). We have held that this will
"generally be an objection to a continuance or a motion
asking to go to trial." Id. "At the very least," a defendant "should manifest 'his desire to be tried promptly."'
Id. at 211-12 (quoting United States v. Litton Sys., Inc.,
722 F.2d 264, 271 (5th Cir. 1984)). If a defendant waits
too long to assert his right, his "silence will be weighed
against him." United States v. Parker, 505 F.3d 323,
329-30 (5th Cir. 2007).
In this case, Duran-Gomez concedes that he never
objected to a continuance or specifically asked to go to
trial, which were the two examples of assertion given in
Frye, 489 F.3d at 211. Instead, he calls our attention to
two occurrences that, he says, manifested his desire for
a speedy trial. See id. at 212.
Duran-Gomez notes that he made a motion in April
2012 asking the district court to set a deadline for the
government to file its Notice of Intent to seek the death
penalty against him. He also calls our attention to an exchange that his counsel had with the district court during an October 2012 status conference. At this status
conference, after Duran-Gomez's counsel indicated that
he would be filing some kind of pre-trial motions, the
district court asked: "Are we talking about motions dealing with, for example ... the question of whether or not
the defendant can get a fair trial based upon the length

17a

of time?" Duran-Gomez's counsel responded, "Yes,
Judge."
Neither of these occurrences can fairly be described
as an assertion of the speedy trial right. If anything,
they qualify only as informal awareness of the right to a
speedy trial, which does not meet the burden. See Frye,
372 F .3d at 739 ("The discussion and awareness of the
right is not the relevant factor; the relevant factor is
when and how a trial request is made to the court."). A
two-word affirmative answer to the district court's question about "motions dealing with ... a fair trial based
upon the length of time" is not within the same ballpark
as "an objection to a continuance or a motion asking to
go to trial." Frye, 489 F.3d at 211. Moreover, DuranGomez did not file any such motion or move for dismissal on speedy trial grounds until seven years after this
status conference. His silence weighs against him. See
Parker, 505 F.3d at 329-30. For similar reason, his request for a death-penalty deadline fails to qualify as an
assertion of the right. Whether the government would
seek his death is only one aspect; he did not ask the district court to set a deadline for his trial.
Duran-Gomez moved to continue the trial ten times
and he explicitly consented to other parties' motions for
continuance on seven occasions. After all, it was DuranGomez who, in May 2019, suggested continuing the trial
from January 2020 to January 2022. Just a few months
after that suggestion, he said his right to a speedy trial
had been violated and moved to dismiss all charges
against him. As the Frye court wisely remarked: "It can
hardly be said that" a defendant's many motions for continuance represent someone "aggressively asserting his
desire to be tried promptly." Frye, 489 F.3d at 212. This
factor weighs heavily against Duran-Gomez.

18a

D.

Barkers fourth and final factor is prejudice suffered by the defendant as a result of the delay. The burden is ordinarily on the defendant to demonstrate actual
prejudice, but there is a scenario in which prejudice can
be presumed. We will analyze Duran-Gomez's presumed-prejudice argument, then look to actual prejudice.
Duran-Gomez argues that prejudice should be presumed. We have previously held that delay longer than
five years gave rise to the presumption of prejudice,
when at least five years of the case's total delay is due to
the government's negligence or bad faith and the defendant asserted his speedy trial right. See, e.g., United
States v. Cardona, 302 F.3d 494, 498 (5th Cir. 2002)
("Cardona's assertion of the speedy trial right and the
unreasonable five-year delay weigh heavily in Cardona's
favor"). 9 Accordingly, prejudice can be presumed when
a court finds that the first three Barker factors weigh
heavily against the government. United States v. SernaVillarreal, 352 F.3d 225, 231 (5th Cir. 2003). See also
Molina-Solorio, 577 F.3d at 305-07 (analyzing each of
the first three Barker factors even though the length of
delay was "nearly ten years" because prejudice can be
presumed "where the first three factors together weigh
heavily in the defendant's favor"); Cardona, 302 F.3d at
9 See also United States v. Bergfeld, 280 F.3d 486, 491 (5th
Cir. 2002) ("[T]he five-year delay in the present case caused by the
government's negligence entitles Bergfeld to a presumption of
prejudice."); United States v. Serna-Villarreal, 352 F.3d 225, 233
n.5 (5th Cir. 2003) ("The portion of the post-indictment delay attributable to government negligence in Doggett, Bergfeld, and
Cardona, was six years, five years, and five years, respectively.").

19a

498 ("Under Doggett and Bergfeld, the first three factors 'should be used to determine whether the defendant
bears the burden to put forth specific evidence of prejudice (or whether it is presumed)."' (quoting United
States v. Bergfeld, 280 F.3d 486,490 (5th Cir. 2002)).
Even when prejudice is presumed, however, our inquiry is not over. The Supreme Court held in Doggett v.
United States that "presumptive prejudice cannot alone
carry a Sixth Amendment claim without regard to the
other Barker criteria." 505 U.S. 647, 656 (1992) (emphasis added). The government can also rebut the presumption by proving that the prejudice is "extenuated by the
defendant's acquiescence." Cardona, 302 F.3d at 499;
see also Doggett, 505 U.S. at 658.
The first three Barker factors do not weigh heavily
against the government, so prejudice against DuranGomez is not presumed under the Serna-Villarreal
framework. Serna-Villarreal, 352 F .3d at 231. While the
length of delay weighs heavily against the government,
the second and third factors weigh heavily against Duran-Gomez.
Even if we were to accept Duran-Gomez's argument
that prejudice should be presumed, with the "other
Barker criteria" in mind, we conclude that the government has "persuasively rebutted" any purported presumed prejudice in this case. Doggett, 505 U.S. at 656,
658. With his many motions for continuance, DuranGomez acquiesced in and indeed actively sought the delay about which he now complains. In addition, "the
amount of time that lapsed before" Duran-Gomez "made
a formal request based on his speedy trial right cuts
against presuming prejudice." Frye, 372 F .3d at 739.
Any presumed prejudice was heavily extenuated and we

20a

therefore reject Duran-Gomez's presumed-prejudice argument.
In the alternative, Duran-Gomez says he suffered
actual prejudice, which he bears the burden of showing.
See Serna-Villarreal, 352 F.3d at 230. "Actual prejudice
is assessed in light of the three following interests of the
defendant: (1) to prevent oppressive pre-trial incarceration; (2) to minimize anxiety and concern of the accused;
and (3) to limit the possibility that the defense will be
impaired." United States v. Harris, 566 F.3d 422, 433
(5th Cir. 2009) (internal quotations omitted).
Of these interests, "[t]he Supreme Court has stated
that limiting the defendant's ability to prepare his case
is the most serious." Frye, 489 F .3d at 212 (citing Barker, 407 U.S. at 532). Before trial, a claim of an impaired
defense "tends to be speculative." United States v.
MacDonald, 435 U.S. 850, we disfavor a defendant's conclusory and unsupported assertions of actual prejudice.
858 (1978). After all, it is only after trial that a reviewing
court is able to evaluate any impairment the defendant
may have actually suffered. Based on these principles,
Frye, 489 F .3d at 213.
Duran-Gomez argues that he has suffered oppressive pre-trial incarceration and anxiety and concern. He
also says that his defense has been impaired because the
government has not yet provided contact information for
several potential, deported witnesses. As we have already acknowledged, Duran-Gomez substantially contributed to the pre-trial delay with his many motions for
continuance. His failure to object to a single motion for
continuance also undercuts any assertion of anxiety or
concern, as does his failure to provide any evidence in
support of his argument. See id. Duran-Gomez's defense-impairment argument is weak, as a defendant's

21a

current inability to contact someone is the type of
"speculative" argument we are wary of in pre-trial,
Sixth Amendment cases. See MacDonald, 435 U.S. at
858; see also United States v. Crouch, 84 F.3d 1497,
1515-16 (5th Cir. 1996). Furthermore, Duran-Gomez
admitted in his brief that his counsel from his obstruction of justice case deposed some of the witnesses he
says he now cannot contact. Duran-Gomez has failed to
prove that he suffered actual prejudice.
IV.
Balancing the Barker factors, we hold that DuranGomez's right to a speedy trial has not been violated. As
for the length of delay, the government alleges that he
ran an international, multi-year human-smuggling operation. During that illegal activity, he allegedly killed two
men and committed several capital crimes. DuranGomez was originally charged alongside five codefendants, two of whom were potential capital defendants like Duran-Gomez. While we weigh Barkers first
factor against the government, we recall the Supreme
Court's note that "the delay that can be tolerated for an
ordinary street crime is considerably less than for a serious, complex conspiracy charge." Barker, 407 U.S. at
531.
Duran-Gomez contributed substantially to Barkers
second factor, the reason for delay. While the government's death-penalty review process with respect to Rodriguez-Mendoza took a substantial period of time, we
cannot say that this should weigh against the government in the specific circumstances of this case. Furthermore, the government's open file policy complied
with Federal Rule of Criminal Procedure 16. DuranGomez sought myriad continuances and never objected
to another party's motion for continuance. In his mo-

22a

tions for delay, he said that he needed more time to investigate the issues, interview witnesses, and negotiate
a possible plea deal with the government. This factor
weighs heavily against Duran-Gomez.
Barkers third factor also weighs heavily against
Duran-Gomez because the Supreme Court has "emphasize[ d]" that it will be "difficult" for a defendant to prove
a speedy-trial violation when he fails to diligently assert
his right. Barker, 407 U.S. at 532. Duran-Gomez did not
assert his speedy trial right for over nine years, until he
moved to dismiss the indictment on speedy trial grounds
in August 2019. The two instances in which DuranGomez's counsel indirectly mentioned the length of delay before August 2019 do not qualify as assertions under our precedent. Frye, 489 F.3d at 211.
Finally, as for Barkers fourth factor, prejudice may
not be presumed because "the first three factors together [do not] weigh heavily" in Duran-Gomez's favor. Molina-Solorio, 577 F.3d at 307. Even if prejudice were to
be presumed, it was substantially extenuated by DuranGomez's actions. Cardona, 302 F.3d at 497. He also
failed to carry his burden of proving that he suffered actual prejudice under Harris, 566 F .3d at 433.
Simply put, "the record strongly suggests" that Duran-Gomez-while hoping "to take advantage of the delay in which he had acquiesced, and thereby obtain a
dismissal of the charges"-"definitely did not want to be
tried." Barker, 407 U.S. at 535.
V.
The district court held that Duran-Gomez's Fifth
Amendment due-process rights had been violated in the
pre-indictment period. On appeal, however, DuranGomez conceded in his brief and at oral argument that
we need not address any issues related to the Due Pro-

23a

cess Clause, because he did not seek dismissal on Fifth
Amendment grounds. Oral Argument at 27:34-28:04. In
any event, Duran-Gomez did not suffer a Fifth Amendment due-process violation because he failed to prove
that the government acted in bad faith and caused him
actual, substantial prejudice during the pre-indictment
period, and we REVERSE the district court's alternative holding. See Crouch, 84 F.3d at 1514; United States
v. Gulley, 526 F.3d 809,820 (5th Cir. 2008).

***
The judgment of the district court is REVERSED
and the case is REMANDED for a prompt trial.

24a

APPENDIXB

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

No. 4:10-cr-00459

UNITED STATES OF AMERICA
vs.
WILMAR RENE DURAN GOMEZ

Memorandum and Order
Kenneth M. Hoyt, District Judge
Entered: March 12, 2020

I.

INTRODUCTION
Before the Court is Wilmar Rene Duran-Gomez's
["Duran-Gomez"], motion to dismiss the Second Superseding Indictment filed against him by the United
States of America ["the Government"]l. Also pending is
the Government's response opposing the motion [Dkt.

1 Alternatively, he seeks to have the Department of Justice's ["DOJ"] notice of intent ["NOI"J authorizing the death penalty stricken as a sanction [Dkt. No. 454].

25a

No. 458] and Duran-Gomez's reply [Dkt. No. 460]. After
receiving oral arguments, examining the motion, response, reply, respective attachments and relevant court
files, the Court determines that Duran-Gomez's motion
is meritorious and should be granted. His request for
alternative relief is rendered moot.
II.
FACTUAL BACKGROUND
A. Duran-Gomez's Arrest and Plea
Duran-Gomez first came to the attention of the
Immigration and Customs Enforcement Agency
["I CE"] after the bodies of two aliens, Abedlardo Sagastume and Hector LNU, were discovered in a field in
Fort Bend County, Texas on November 15, 2006. ICE
commenced an investigation along with local law enforcement agencies, the extent of which is not fully disclosed or necessary to the resolution of this case. ICE's
investigation, nonetheless, was based on immigration
violations and soon focused on Duran-Gomez.
On November 21, 2006, six days after the aliens'
bodies were discovered, the FBI arrested Duran-Gomez
at his home. He was mirandized2 based on alleged immigration violations and cooperated, at some level. He
gave both, oral and written statements that implicated
him in the crime for which he had been arrested. Concurrently, the FBI executed a search warrant at a warehouse on Ashcroft Street in Houston, Texas, where aliens were allegedly held, and where it was believed the
murders of the two aliens occurred.

2 The Court assumes that Duran-Gomez was mirandized
even though only the plea documents evince that fact. Strikingly,
the record shows that he was not taken before a magistrate judge.

26a

On or about November 29, ICE agents began listening to recorded calls made by and between DuranGomez, his mother, his former girlfriend and his sister.
During the course of the telephone calls, he allegedly
requested that his mother, girlfriend and sister they
remove certain personal property from his home including cash and a computer monitor and CPU, and place
the items in a storage unit. Based on information gathered from the telephone calls, Duran-Gomez, along with
his mother, girlfriend and sister were charged with obstruction.
Approximately a month later, Duran-Gomez, his
mother, sister and girlfriend were formally indicted for
obstructing an ICE investigation. See [Cr Case No. 0406-459, Dkt. No. 1]. In the meantime, the Government
continued its immigration investigation against DuranGomez while he remained in custody. Subsequently, he
entered a plea of guilty, pursuant to a plea agreement on
May 25, 2007, to obstruction, where he agreed to cooperate with the Government in its ongoing investigation.
When he entered his plea of guilty, he confessed to conduct that further implicated him in the deaths of the two
aliens. The language contained in his plea agreement,
states in relevant part the following:
The defendant is pleading guilty because he
is guilty of the charges contained in Count One of
the Indictment. If this case were to proceed to
trial, the United States could prove each element
of the offense beyond a reasonable doubt. The
following facts, among others, would be offered
to establish the defendant's guilt:
At about 6: 10 a.m. on November 15, 2006,
two Hispanic male corpses were found in a stolen
pickup truck that had been abandoned in rural

27a

Ft. Bend County. When the corpses were received by the medical examiner about two hours
after they were discovered, he estimated that the
men had been killed 12 - 24 hours earlier. The
men had been beaten to death.
The bodies and truck were traced back to a
warehouse located at 7315 Ashcroft, Suite 116, in
Southwest Houston. The warehouse was leased
by Wilmar Rene Duran-Gomez.
Acting upon a state-issued search warrant,
an FBI forensic team entered the Ashcroft
warehouse on November 21, 2006 and conducted
a detailed crime scene analysis. The ensuing investigation determined that the men had in fact
died in the warehouse on November 14, 2006, at
approximately 11:00 p.m.
After mirandizing and arresting both [Duran-Gomez and his girlfriend] ... on immigration
charges, Duran gave a statement. [Emphasis
supplied].
A Pre-Sentence Investigation Report ("PSR") was
completed in the obstruction case and was filed on
March 3, 2008. Nevertheless, four years nearly passed
before Duran-Gomez would be sentenced on January 6,
2011. The PSR included the Government's investigation
materials that contributed to the probation officer's report and recommendation to the Court. The PSR calculations for punishment purposes were as follows:
The United States Sentencing Commission
Guideline for violation of 18 U.S.C. § 1505 is
found in U.S.S.G. §2Jl.2. According to U.S.S.G.
§ 2Jl.2(c)(l), if the offense involved obstructing

28a

the investigation or prosecution of a criminal offense, apply U.S.S.G. § 2X3.1 (Accessory After
the Fact) in respect to that offense. According to
U.S.S.G. § 2X3.l(a)(l), the base offense level is to
be 6-levels lower than the offense level for the
underlying offense, but not more than level 30, as
provided by U.S.S.G. § 2X3.l(a)(3)(A). The underlying offense in this matter involved the
smuggling-transporting-harboring of unlawful
aliens, resulting in the death of two of those aliens. Therefore, the appropriate guideline is
U.S.S.G. §2Ll.l(a), which produces a base offense level of 12. According to the "pollo lists",
there were approximately 1,700 aliens smuggled.
Pursuant to U.S.S.G. §2Ll.l(b)(2)(C), for 100 or
more aliens smuggled, transported, or harbored,
9-levels are added. As described above, a firearm
was discharged at the Ashcroft warehouse. Pursuant to U.S.S.G. §2Ll.l(b)(5)(A), if a firearm
was discharged, increase by 6-levels. As indicated, the aliens detained at the Ashcroft warehouse
were treated in a brutal, inhumane manner. They
were tied up and beaten repeatedly, left in their
underwear and periodically stripped naked, and
not fed properly. According to U.S.S.G.
§2Ll.l(b)(6), if the offense involved intentionally
or recklessly creating a substantial risk of death
or serious bodily injury to another person, increase by 2-levels. According to the Commentary, Note 5, conduct to which this adjustment
applies includes, ". . . harboring persons in a
crowded, dangerous, or inhumane condition."
Therefore, this increase has been applied. Pursuant to U.S.S.G. to U.S.S.G. §2Ll.l(b)(8), [sic] if
an alien was involuntarily detained through coer-

29a

cion or threat, or in connection with a demand for
payment, increase by 2-levels. Therefore, these
calculations total 41, less the 6-level reduction
called for, resulting in a base offense level of 35.
The base offense level may not exceed 30, however, based upon U.S.S.G. §2X3.l(a)(3)(A).
See Case 4:06-CR-0459, [Dkt. No. 109 at 10-11, June 6,
2008]. Duran-Gomez was sentenced to the maximum
term that the statute allowed notwithstanding his cooperation and the fact that the PSR included unindicted
conduct. According to the Sentencing Guidelines applicable and/or those applied, Duran-Gomez's base Offense
Level score for the offense of obstruction was 12 and a
Criminal History Category of one. Assuming he had
smuggled 1,700 aliens into the United States, as recorded, the Offense Level increases to 21. This scoring would
result in a sentencing range of 37 - 46 months. However,
once the investigation materials were considered, the
sentencing range increased to 151 to 188 months. At the
time of his sentencing, Duran-Gomez had been continuously detained in jail approximately 50 months.
B. The Original, Superseding and Second Superseding Indictments
The Original Indictment in the immigration case,
filed on July 1, 2010, charged Duran-Gomez with intentionally engaging in a conspiracy to transport and harbor illegal aliens within the United States and engaging
in conduct that caused the deaths of two aliens. Title 8
U.S.C. §§ 1324(a)(l)(A)(ii), 1324(a)(l)(A)(iii) and
1324(a)(l)(B)(i). See [Dkt. No. 1, Indictment]. The documents and statements obtained during the investigation supported the conclusion that the two murdered aliens, Abedlardo Sagastume and Hector LNU, among

30a

others, were being held at a warehouse controlled by
Duran-Gomez where they "hatched" a scheme to escape.
The murdered aliens were accused by fellow aliens
of setting fire to the warehouse in an attempt to escape.
Duran-Gomez learned of the fire and, upon inquiry
learned that the same two were "plot[ing] to kill" one of
his "lieutenants", Jose Alberto Bolanos-Garza, as part of
an escape attempt. Bolanos-Garza was not officially
named as a codefendant in the 2010 Indictment. He was
later named in the Superseding Indictment filed October 4, 2012, along with Efrain Rodriguez-Mendoza.
It is important to note that other codefendants
named in the 2010 Indictment, were not charged with
participating in the beatings and deaths of the two aliens. The 2012 Indictment made it clear that, in the Government's view, Balanos-Garza, Rodriguez-Mendoza,
and Duran-Gomez were all responsible for the beatings
and deaths of two aliens and, therefore, should receive
the death penalty.
Shortly after the 2006 Indictment for obstruction,
the Government announced publicly that, based on its
preliminary investigation, it would be seeking the death
penalty against Duran-Gomez and perhaps others. At
that time, the State of Texas declined to pursue charges
against him. Yet, the requisite formal "notice of intent"
["NOi"] to seek death as to Duran-Gomez was not
sought until October 15, 2011, fifteen months after the
2010 Indictment was filed and after the case had been
set for trial [Dkt. No. 137] 3•

3 The Government abandoned its "seek or not" application
to the DOJ for Balanos-Garza and proceeded to plea negotiations.

31a

In September of 2012, the Government received authority to seek death against Duran-Gomez and filed its
NOI and its Superseding Indictment [Dkt. No. 147].
Although the 2012 Indictment disclose, RodriguezMendoza as a codefendant, he was a fugitive at the time.
In spite of that fact, the Government announced ready
for trial as to Duran-Gomez and the remaining codefendants. Six months later, on the eve of trial, Rodriguez-Mendoza was arrested in South Texas attempting
to reenter the United States. At that time, the Government insisted that Duran-Gomez and RodriguezMendoza be tried together because it intended to also
seek an NOI against him.
Despite the government's announcement that it intended to seek an NOI against Rodriguez-Mendoza, it
did not. Rather it engaged in plea negotiations with him.
On August 5, 2015, after yet another passed trial date,
the Court formally ordered the Government to "seek or
not" an NOI as to Rodriguez-Mendoza. [Dkt. No. 251].
However, the Government sought another extension because the DOJ was considering the terms of the plea
agreement that had been struck with RodriguezMendoza [Dkt. No. 253]. In the meantime, BolanosGarza, along with the remaining codefendants, entered
pleas of guilty to lesser crimes, thereby avoiding a trial.
The DOJ rejected Rodriguez-Mendoza's plea
agreement. On January 10, 2017, approximately sixteen
months after the Court's order, the Government filed an
NOI as to Rodriguez-Mendoza, followed by a 2017 Second Superseding Indictment. Frustrated with unsuccessful trial settings, the Court held a telephone confere nee and directed the parties to agree on a scheduling
order that would allow Rodriguez-Mendoza to "catch
up" in his preparation for trial since the Government
was still insisting on a single trial.

32a

On September 4, 2017, Rodriguez-Mendoza filed a
motion for severance. Duran-Gomez filed a separate motion to sever. After reviewing the motions and replies,
the Court granted Rodriguez-Mendoza's motion in light
of the anticipated extenuated lag necessary for trial
preparation [Dkt. No. 425]. The Court entered the parties Agreed Scheduling Order as to Duran-Gomez, and
his case is currently set for trial in March of 2021 , [See
Dkt. No. 450]. Duran-Gomez promptly filed a motion to
dismiss the 2017 Indictment based on violations of his
right to a speedy trial and "due process". [See Dkt. No.
454].
III. CONTENTIONS OF THE PARTIES
A. Duran-Gomez's Contentions
In five main points of contentions, Duran-Gomez
asserts that his speedy trial and "due process" rights
under the Speedy Trial Act ("Act"), the Fifth, Sixth and
Eighth Amendments4 to the federal Constitution have
been violated. First, he contends that his rights were
violated because the Government, after arresting him,
delayed indicting him for nearly four-years while he remained in jail. 5 Next, he asserts that the Government
delayed seeking an NOI for more than two years after
the 2010 Indictment and further delayed the trial an additional five years after the 2012 Indictment. Third, DuThe Court will not address Duran-Gomez' Eighth
Amendment claim as a separate contention because, in the Court's
view it is premature.
4

5 The records show that during this period of delay, the
Government conducted interviews and depositions of material witnesses, placed Duran-Gomez in a line-up and obtained a proffer
interview from him.

33a

ran-Gomez, asserts that the Government delayed producing discovery, the vast majority of which was not
produced until January of 2017. Fourth, he alleges that
the Government delayed obtaining plea agreements with
four codefendants until 2016, without explanation, further delaying trial preparation. And finally, he maintains that the funding for his defense was insufficient
and inconsistent, thereby preventing him from successfully gathering mitigation evidence. 6 Therefore, he argues, the Court should dismiss the 2017 Indictment
based on violations of the Act and the Sixth Amendment
and, alternatively, strike the NOi as a sanction under
the "Due Process" clauses of Fifth and Eighth Amendments.
In support of his motion, Duran-Gomez points to
the fact that the Government's investigation commenced
on or about November 15, 2006, when the FBI entered
the case. On November 21, he was arrested on immigration charges, and was mirandized, but was not indicted.
Instead, on December 27, 2006, he was charged with obstructing ICE's investigation. He entered a plea of
guilty to the obstruction charge, pursuant to a plea
agreement and agreed to cooperate in the ongoing immigration investigation. Regrettably, his cooperation,
however, has been used by the Government to support
the Indictments in the case at bar.
He further surmises that the Government's delay in
seeking the 2010 Indictment was part of its trial strategy designed to gain some impermissible trial advantage,
6 The Court will not address Duran-Gomez's claim of prejudice based on the Court's failure to fund his request for a mitigation expert in light of the disposition of the case.

34a

hamper his defense preparations and punish him. See
United States v. Bishop, 629 F.3d 462, 467 (5th Cir.
2010). As a result, he was forced to either file motions
for continuances or acquiesce in those filed by his codefendants. Hence, he argues, the Government's lackadaisical approach to this case has spanned some 13 years,
resulting in the latest trial date in March of 2021. Therefore, and because this conduct appears to be part of the
Government's strategy, he contends that all delays
should be charged to the Government.
In support of his argument that all delays should be
laid at the Government's feet, Duran-Gomez points out
that the Government completed its investigation in large
measure before March of 2008. 7 It announced earlier in
2006 that it was "treat[ing] [the] investigation as a potential capital case" based on the beatings and deaths of
two aliens. In spite of its post-indictment claim that it
was ready for trial, the Government "artificially divid[ ed] [his alleged] conduct into two prosecutions". In
this regard, he argues that the 2006 Indictment for obstruction cannot be used as a foil to defeat his speedy
trial rights on alleged immigration violations.
In further support of his claim concerning of other
unconstitutional tactics, Duran-Gomez argues the Government used its immigration investigation materials to
enhance the punishment in the obstruction case, and
now uses the obstruction conviction as an enhancement

7 The Government was prepared to indict Duran-Gomez for
alien smuggling based on the deaths of the two aliens in 2007, but
chose to delay the Indictment until he was sentenced in the obstruction case set for February 29, 2008. [See [Dkt. No. 499, Exhs.
4 and 5].

35a

in the Indictment. 8 Hence, he argues, the Government
has artfully and strategically overrun the constitutional
protections afforded him under the Fifth and Sixth
Amendments to the federal Constitution and the Act.
Because the delay between his initial detention and the
currently scheduled trial exceeds 15 years, the "threshold" between "ordinary delay" and "presumptively prejudicial delay" has been long crossed. Consequently, he
asserts, the Court must scrutinize the Government's
conduct and the evidence and determine whether the
Government's pre-indictment and/or post-indictment
conduct warrants dismissal based on prejudice or prosecutorial mischief.
Duran-Gomez admits that he does not have direct
evidence, beyond the record, that the Government set
out to violate his rights. Nevertheless, he argues, the
delays were unconstitutionally strategic, hence the result is the same. Moreover, the manner that the Government has gone about preparing its case establishes
bad faith. Therefore, he argues he has also suffered ir-

The PSR provided to the Court in the 2006 case is published in relevant part in the Analysis and Discussion section of this
Memorandum. It reveals how the Government presented its "case"
for punishment to the 2006 case. Regarding the use of the 2006 case
here, reference to the 2006 case is made in the 2017 Second Superseding Indictment. The relevant provisions provided at paragraph
14 state:
8

"After the bodies were discovered, WILMAR RENE DURAN-GOMEZ caused items to be removed from his house,
to include: a computer, "pollo lists", approximately $36,000
in U.S. currency, and firearms. The items were removed in
an attempt to prevent their discovery and seizure by law
enforcement officers."

36a

reparable prejudice by the Government's unconstitutional posturing, indecisiveness and protracted delay.
Duran-Gomez also asserts evidentiary prejudice because of the absence and unavailability of witnesses that
were interviewed by the Government during the 2006 2010 period. The identity and location of witnesses, who
potentially had exculpatory evidence, are either missing,
deported or deceased. And, while the Government argues that it has offered up its witnesses, Duran-Gomez
contends that it has failed to make available the names
and locations of other potential witnesses. See [Dkt. No.
499, Sealed Document, Duran-Gomez Reply].
He also points out that since 2016, discovery has
been produced on a "rolling basis", a method that is confirmed by the Government. Specifically, at a 2019 hearing, defense counsel stated that DNA analysis needed
for comparisons between the several items of evidence
seized and the DNA of codefendants and aliens, had not
been turned over. As well, Duran-Gomez's computer and
phone, and the data extracted, have not been turned
over. Other discovery, such as his immigration file, those
of the Government's alien witnesses, witness contact information and alien witness statements who were interviewed by the Government, have not been produced.
In addition to discovery and evidentiary prejudice,
Duran-Gomez asserts that his incarceration in jail has
(1) hindered his ability to assist in preparing for his
case, (2) impacted his mental health causing much anxiety; and (3) resulted in a diminished memory capacity.
Therefore, he argues, the reliability of his memory and,
for that matter, the memory of the Government's witnesses are unreliable.
Finally, Duran-Gomez asserts that he has been denied access to mitigation data that would obviate the

37a

Government's NOL As a citizen of El Salvador, he could
have relied on the El Salvadorian Government for assistance. Access to certain school and court records would
have permitted more effective mitigation arguments. To
illustrate his point, Duran-Gomez points out that until
2011, the El Salvadorian Government operated a program for El Salvadorian citizens charged with capital
crimes in America - the El Salvador Capital Assistance
Project. That program was terminated in 2011, after
formal capital charges were announced against him, before an NOI was requested. Moreover, his 2006 request
that the El Salvadorian Consulate be contacted was ignored. Because it appears that the Government intentionally ignored his request, his defense has been irreparably harmed and prejudiced.
B. The Government's Contentions
The Government does not deny that Duran-Gomez
was arrested on November 21, 2006, for immigration
violations that also involved the deaths of two aliens. In
fact, the Government stated as much in the plea agreement that it struck with him in his 2006 obstruction case,
and in its proffer to the United States Probation Office
in 2007-08. Nor does the Government dispute that it has
treated the immigration case as a capital case since
2007. Instead, the Government disputes Duran-Gomez's
take on when his speedy trial rights began to run and
how the obstruction case should be viewed, for speedy
trial purposes, against the backdrop of his arrest on
immigration charges.
In this regard, the Government asserts that "[T]he
fact that [Duran-Gomez] was charged, convicted and
sentenced for crimes committed under a separate indictment has no bearing on his Speedy Trial right ... "
(citing to United States v. Bigler, 810 F.2d 1317, 1320-21

38a

(5th Cir. 1987). The Government argues that, because
the obstruction charge is a distinct charge, apart from
the immigration case, the 2006 Indictment relieved it of
any speedy trial concerns as to the immigration case.
Moreover, it argues the Act did not begin to run on the
immigration case until the 2010 Indictment was filed.
The Government also contends that the 2012 and
2017 Superseding Indictments, "reset" the timeline for
speedy trial purposes under the Act and the Sixth
Amendment and that it is Duran-Gomez's counsel's fault
that the trial has been delayed. It maintains that by
counsel conducting their own investigation for mitigation evidence, in an effort to persuade the DOJ not to
issue an NOI against their client, Duran-Gomez's counsel unnecessarily delayed the trial.
The Government makes a similar argument concerning Duran-Gomez's contention that the Government
delayed trial due to the fugitive and NOI statuses of
Rodriguez-Mendoza. Its choice to try Duran-Gomez and
Rodriguez-Mendoza in a single trial, is its prerogative, it
maintains. It further argues that it is not uncommon for
the Government's case to be delayed when the delay is
due to plea bargaining or the arrest of other codefendants. Accordingly, such delay should not be counted
against it because: (1) it had already announced ready
for trial in 2011, prior to Rodriguez-Mendoza's arrest;
and, (2) because the case was declared complex [Dkt.
No. 43, codefendant, Fuentes' motion].
The Government concedes, however, that "the interval between accusation and trial [crosses] the threshold that separates ordinary delay from presumptively
prejudicial delay". Nevertheless, it argues, even that delay is the fault of Duran-Gomez, based on the innumerable motions for continuance that he and his codefend-

39a

ants filed. Importantly, the Government notes, DuranGomez has not been prejudiced as is evidenced by his
failure to vigorously seek a speedy trial.
In support of its position, the Government highlights the many continuances sought by Duran-Gomez
and his codefendant:
a) July 29, 2010, [Dkt. No. 43] codefendant Fuentes
moved to certify case as complex. The defendant
did not object.;
b) November 15, 2010, [Dkt. No. 56] codefendant
Fuentes moved to continue the trial date. The defendant did not object.;
c) March 23, 2011, [Dkt. No. 86] the defendant
moved for an extension to file pretrial motions;
d) March 29, 2011 , [Dkt. No. 89] codefendant Bolanos-Garza moved to continue trial. The defendant did not object.;
e) November 7 and 22, 2011, [DEs 106 and 108] the
defendant moved to extend deadlines to February 28, 2012;
f) January 17, 2012, [Dkt. No. 114] motion to continue the trial to May 1, 2012;
g) February 21, 2012, [Dkt. No. 118], the defendant
moved to continue to November 13, 2012;
h) October 10, 2012, [Dkt. No. 139] the defendant
moved to continue to April 23, 2013;
i) March 18, 2013, [Dkt. No. 184] the defendant
moved to continue trial to February 10, 2014;
j) October 31, 2013, [Dkt. No. 216] the defendant
moved to continue case to February 10, 2014;

40a

k) March 3, 2014, [Dkt. No. 232] Court Order continuing trial as to the defendant set to September
14, 2015;
1) February 20, 2015, [Dkt. No. 237] the defendant
moved to continue trial to January 25, 2016;
m)January 19, 2016, [Dkt. No. 264] the defendant
moved to continue trial to September 26, 2016;
n) September 7, 2016, [Dkt. No. 285] the defendant
moved to continue case to April 3, 2017;
o) May 30, 2017, [Dkt. No. 340] the defendant
moved to extend trial to June 13, 2017; (filed response June 20, 2017);
p) October 4, 2017, [Dkt. No. 357] the parties filed a
Joint Scheduling Order to October 15, 2018.
q) January 19, 2018, [Dkt. No. 369] the defendant
submitted a request for rescheduling October 7,
2019, trial January 13, 2020;
r) February 4, 2019, [Dkt. No. 420] the defendant
moved to continue pretrial filing October 2019;
and,
s) May 8, 2019, [Dkt. No. 439]. The Court conducted
a status conference as to codefendant Rodrig11ezMendoza.
See [Dkt. No. 458, Government's Response]. Hence, the
Government asserts that, based on Duran-Gomez's innumerable motions for continuance, he cannot show "actual prejudice". Finally, the Government argues that
Duran-Gomez's request that the Court strike the NOI
filed in his case, based on alleged Fifth Amendment, due
process violations is unsupported by statute or case law.
Therefore, Duran-Gomez's request is beyond the authority of the Court and should be denied.

41a

V.

STATEMENT OF THE LAW

A defendant may seek dismissal of his case for violations of "due process" and the speedy trial rights under the Fifth and Sixth Amendments to the federal Constitution and Speedy Trial Act. Title 18 U.S.C. §
3161(c)(1)(2). The Sixth Amendment guarantees an accused the right to a speedy and public trial. See [U. S.
Const. amend VI]. The Act, however, prescribes a
framework for insuring a speedy trial after an indictment has been returned. Barring extenuating circumstances, a criminal defendant's trial must commence
within 70 days after he is charged or makes an initial
appearance, whichever is later. See 18 U.S.C. § 3161(c).
Hence, a defendant may be entitled to dismissal of an
indictment when that timeframe is not met and there
are no extenuating circumstances that excuse delay. See
18 U.S.C. § 3162(a)(2); see also Bloate v. United States,
559 U.S. 196, 198-99, 130 S.Ct. 1345, 1349 (2010).
Where there are both pre-indictment and postindictment claims of unconstitutional delay, a court must
distinguish between the two on the issue of speedy trial
delay. See United States v. Lovasco, 431 U.S. 783,
(1977)(citing to United States v. Marion, 404 U.S. 307
(1971). Pre-indictment delay claims have traditionally
been considered under the Fifth Amendment, as they
relate to the deprivation of "due process" of the law by
inordinate delay that was also prejudicial to his defense.
But, where there is actual restraint imposed by an arrest and a holding to answer for criminal charges, the
Due Process Clause is implicated. Lovasco, 431 U.S. at
788. Therefore, a court examining a pre-indictment
speedy trial claim must look to determine whether the
Government is moving "with the dispatch that is appropriate to assure [an accused] an early and proper disposition of the charges against him." Marion, 404 U.S. at

42a

313. Similarly, a pre-indictment claim for an alleged
"due process" violation requires a court to look to the
Government's conduct, i.e., delay tactics or mischief, and
determine whether such delay tactics or mischief was
oppressive. Id., see also United States v. Bishop, 629
F.3d 462, 466 (5th Cir. 2010), (citing United States v.
Byrd, 31 F.3d 1329, 1339 (5th Cir. 1994)).
Post-indictment claims of unconstitutional delay
under the Sixth Amendment and the Act, are reviewed
under the "balancing test" cited as the Barker test. See
Barker v. Wingo, 407 U.S. 514 (1972). Barker dictates a
four-part evaluation of the evidence focusing on: (a) the
length of the delay; (b) the reason(s) for the delay; (c)
the defendant's diligence in asserting his right to a
speedy trial; and, (d) any prejudice to the defendant resulting from the delay. Id. at 530-33; see also United
States v. Frye, 489 F.3d 201,209 (5th Cir. 2007).
None of the factors is a "necessary or sufficient
condition to the finding of a deprivation of the right to
speedy trial". Nevertheless, "they are related factors
and must be considered with such other circumstances
as may be relevant" Barker v. Wingo, 407 U.S. 514, 533
(1972; see also United States v. Young, 657 F.3d 408, 414
(6th Cir. 2011, (citing to Barker, 407 U.S. at 530).
When considering a speedy trial claim, the length of
the delay is a "triggering mechanism." Young, 657 F.2d
at 414. It is measured from the earlier of the date of arrest and detention and the date of indictment. Id., (citing United States v. Bass, 460 F.3d 830, 836 (6th Cir.
2006)). When that delay is excessively protracted, it may
be said that the length of delay is "presumptive prejudicial." United States v. Frye, 489 F.3d 201, 209 (5th Cir.
2007).

43a

When delay is deemed to be "presumptively prejudicial", the burden of persuasion shifts to the Government to establish that the delay was justified or that the
defendant's speedy trial rights were not prejudiced. Id.
In other words, where the first three Barker factors
weigh so heavily in favor of the defendant that prejudice
is to be presumed ... the Government [must] show that
the presumption is extenuated . .. , or rebut the presumption with evidence. United States v. SernaVillarreal, 352 F.3d 225, 231 (5th Cir. 2003); (citing to
Doggett v. United States, 505 U.S. 647, 655 (1992)). If
the Government fails to carry its burden, the proper
remedy is dismissal of the indictment with prejudice.
Bloate, 559 U.S. at 199; United States v. Molina-Solorio,
577 F .3d 300, 308 (5th Cir. 2009).
VI. ANALYSIS AND DISCUSSION
A. Restatement of Government's Contentions
Concedes that the first Barker factor is satisfied in
this case, the Government asserts that the Court must
consider the remaining three factors to determine
whether the delay "has crossed the threshold that separates ordinary delay from presumptively prejudicial delay". See Amos v. Thornton, 646 F.3d 199, 205 (5th Cir.
2011). In this wise, the Government asserts that DuranGomez' motion should be denied because he has filed
numerous motions for continuance. This conduct, the
Government suggests, constitutes a "pleading game"
designed to "thwart" prosecution by "increasing the delay and cost" of the prosecution [Dkt. No. 458, Government's Response. pp. 8-9].
Next, the Government argues that Duran-Gomez
has waived any claim of a violation of his right to a
speedy trial. In this regard, the Government argues that
the combination of numerous motions for continuance,

44a

coupled with his failure to conscientiously seek a speedy
trial, waives the right. The Government points to DuranGomez and his attorney's waiver of a detention hearing,
essentially "conced[ing] that defendant should be detained pending trial." See [Dkt. No. 39]. Finally, the
Government asserts that the Court lacks the legal authority to strike the NOI, as a sanction and convert the
case into a non-capital offense, based on alleged "due
process" violations.
The Government has not offered testimonial or
documentary evidence, beyond the plethora of motions
for continuance in support of its arguments. Therefore,
its arguments rest on an analysis of the three remaining
Barker factors-whether Duran-Gomez can show that: (1)
a speedy trial violation occurred, (2) he demanded a
speedy trial, and (3) the "presumptive prejudicial" delay
result in actual prejudice. See Frye, 489 F .3d at 2099•
B. Pre-Indictment Delay
The Court is of the opinion that the Government's
pre-indictment conduct violated Duran-Gomez's Fifth
Amendment right to "due process" of law and his Sixth
Amendment right to a speedy trial. Duran-Gomez was
arrested on November 21 , 2006, for alleged immigration
violations that involved the deaths of two aliens. Thirty
days later, he was indicted for obstructing an ICE inves-

9 Notably, the Government has not attempted to address
Duran-Gomez's right to a speedy trial under the Sixth Amendment
in the pre-indictment context. It appears that this omission was not
an oversight but based in the Government's view that the 2010 Indictment was the speedy trial triggering mechanism - not his arrest and detention.

45a

tigation. Of note is the fact that Duran-Gomez was not
arrested for obstruction.
It is the Court's view that the Government's decision to charge Duran-Gomez with the offense of obstruction, after arresting him on immigration charges, does
not relieve it of its duty to address Duran-Gomez's
speedy trial rights under the Sixth Amendment. In a
somewhat oblique argument, the Government contends
that Duran-Gomez's conviction for obstruction "has no
bearing on his Speedy Trial rights" in this case. That
might be true, nevertheless, the Court disagrees with
the Government's conclusion. The obstruction case was,
in fact, a separate indictment and required separate attention, just as the immigration case for which he was
arrested. Granted, the Act does not apply to preindictment circumstances but the Sixth Amendment
does.
Relying on Biglar, the Government argues that the
"timeline" chosen by Duran-Gomez does not aid him.
United States v. Biglar, 810 F.2d 1317, 1320-21 (5th Cir.
1987). This argument is without logic or legal authority.
The Government appears to argue that the conviction on
the obstruction case works to exclude any claim of a
speedy trial violation in the immigration case, citing to
United States v. Montoya, 827F.2d 143, 147-50 (7th Cir.
1987). Neither Biglar nor Montoya addressed a preindictment/detention issue as is presented here. Biglar
addressed delay that occurs when the state and federal
Governments are competing for the body of same accused based on jurisdiction and separate crimes. Montoya on other hand, concerned delay caused when an
accused is engaged in plea negotiations.
The Government does not assert that the trial was
delayed due to separate governments competing for Duj

46a

ran-Gomez. Nor does the evidence suggest that the
Government was engaged in plea negotiations with Duran-Gomez or others in the immigration case during the
pre-indictment period. Instead, the evidence shows that
the Government simply "sat on him" while they engaged
in an unusually protracted investigation that, for all
practical purposes, was completed in early 2008.
Had the Government argued that Duran-Gomez
was also being detained for deportation proceedings,
that argument would be inconsequential for speedy trial
analysis. The argument overlooks the fact that the Government never sought to bring him before the appropriate judicial officer. Nor does the Government explain
why it did not provide him with a "due process" hearing
in the immigration courts regarding any alleged immigration infraction(s). Assuming further that DuranGomez could have been charged or held for immigration
infractions, those charges would not defeat his right to a
speedy trial on the immigration charges for which he
was arrested and detained. Again, even assuming that
Duran-Gomez could have been detained on the obstruction charge, that charge does not permit the Government to delay sentencing for years or swap the crimes
and ignore the basis for his arrest and detention. The
charge of obstruction arose after his arrest and detention on immigration charges.
A formal indictment, as well as actual restraint by
an arrest and holding, i.e., pre-indictment, engages the
protections of the Sixth Amendment. Marion, 404 U.S.
at 320 (1971). Hence, while pre-indictment delay does
not engage the Act, it does not escape the scrutiny of the
Sixth Amendment. Id. Duran-Gomez's arrest and detention on the immigration charge and the failure to bring
him before a magistrate judge on that matter, cannot be
"swept under the rug" simply because of the Govern-

47a

ment's decision to file the subsequent obstruction
charge. Therefore, the Court holds that Duran-Gomez's
right to a speedy trial was invoked when the Government arrested and detained him on immigration charges. See Lovasco, 431 U.S. at 788.
Duran-Gomez's motion to dismiss is meritorious
and should be granted because the Government deliberately delayed charging him with the capital offense for
which he was initially arrested and detained. During the
course of the pre-indictment delay, he was denied (1)
capital qualified counsel, (2) a meaningful opportunity to
investigate the immigration charges as they were being
developed against him; (3) the opportunity to obtain evidence; and, (4) the benefits of serving his sentence in
prison rather than the inferior confines of jail. 10
The same delay and conduct also violated DuranGomez's right to "due process" under the Fifth Amendment. The evidence shows that the delay was intentional
and undertaken for the sole purpose of gaining some
tactical advantage and to punish. Bloate, 559 U.S. at 198,
99. Such conduct is impermissible and reveals bad faith
on the part of the Government. United States v. Crouch,
84 F.3d 1497, 1514 (5th Cir. 1996)(citing to Marion, 404
U.S. at 325). Because the delay was intentional and suppressive and lacked a plausible explanation, the Court
infers prejudice. This inexplicable conduct denied Du10 The Court points out that the scope of the conduct at issue spans several discrete files involving innumerable codefendants
and witnesses, none of which are readily available to Duran-Gomez
even today. Moreover, the evidence supports the finding, and the
Court finds, that these files have not been provided to the defense.
Therefore, the scope and nature of the Government's unimitated
conduct remains unquantifiable.

48a

ran-Gomez "due process" of law and prejudiced his opportunity for a fair or just trial. 11
The Court does not reach its conclusion lightly. Rather it rests its determination, in part, on the fact that
Duran-Gomez began cooperating with the Government
long before he was indicted for obstruction and continued to do so afterward. Moreover, by all accounts, the
investigation, although complex and protracted, was for
all practicable purposes concluded in 2007-08.
This fact is established in the Government's investigation proffer, presented to the U. S. Probation Officer
("USPO") in early 2008, if not sooner, 12 as part of its
preparation for sentencing in Duran-Gomez's 2006 case.
Twenty-four (24) of the 27 paragraphs under the "Relevant Conduct" section concern the Government's investigation. In order to appreciate the nature and scope of
the Government's investigation and its unmistakable
and intentional conduct, the following excerpts taken
directly from the USPO's report:

To compound the mischief, the Government would not
proceed to sentence Duran-Gomez, on the obstruction charge in a
timely manner. Instead, it intentionally delayed sentencing him.
The Government has not presented evidence or excuse for this unconventional, high-handed, manner of proceeding.
11

12 The USPO received the Government's proffer in sufficient time to publish its Report on March 3, 2008, about 10 months
after Duran-Gomez entered his plea to obstruction.

49a

The Offense Conduct13
Information for this section of the report was obtained through review of the investigative files
and reports of the United States Attorney's Office, the Bureau of Immigration and Customs
Enforcement (ICE), and through direct communication with the case agent.
At approximately 6:10 a.m. on November 15,
2006, two Hispanic male corpses were found in a
stolen pickup truck that had been abandoned in
rural Fort Bend County, Texas. The corpses
were received by the Fort Bend County Medical
Examiner approximately two hours after they
were discovered, and it was estimated they had
been killed approximately 12 to 24 hours earlier.
It was also determined the men had been beaten
to death. Investigation led the authorities to believe the bodies and truck were associated with a
warehouse located at 7315 Ashcroft, Suite 116, in
the Southwest area of Houston, Texas. The
warehouse on Ashcroft was leased by Wilmar
Rene Duran-Gomez.
On November 21, 2006, acting on a state-issued
search warrant, an FBI forensic team entered
the Ashcroft warehouse. A detailed analysis of
the crime scene determined that the two Hispanic murder victims had died there on November
14, 2006, at approximately 11:00 p.m. During ex13 The Offense Conduct section of Duran-Gomez's 2006 is
located in the PSI and was under seal. Because of the serious nature of the matters before the Court, certain portions have been
unsealed.

50a

ecution of the search warrant, Duran-Gomez
was apprehended in the driveway of his home in
Houston. He was accompanied at the time by his
girlfriend, Guillermina Lucas-Cayetano, whose
true name was determined to be Diana Soledad
Caldas- Guevara. Both were arrested for immigration violations. Following Duran-Gomez's arrest, he provided a statement acknowledging he
was at the warehouse when the beatings occurred. He claimed, however, that he had only
learned of the beatings after the victims were
near death, and it was too late to save them when
he intervened. Duran-Gomez further admitted
he and his girlfriend had left the bodies at a remote sight, stuffed behind the front seat of a
pickup truck that they had unsuccessfully attempted to torch.
While outside Duran-Gomez's house, agents
looked through the living room window and saw a
notebook that appeared to be a smuggled alien
list (pollo list). Based upon that information,
agents obtained a search warrant. Due to the
Thanksgiving holiday, the warrant was not execut ed until Friday, November 24, 2006. When the
search warrant was served on that date, however, agents learned that unknown persons had
removed the pollo lists and a computer central
processing unit (discernible by dust patterns on a
desk and unattached wires extending from a
printer and a power source). It was assumed other evidence had been tampered with as well. Also
missing from the residence were three vehicles
which agents had previously observed in the area
at the time Duran-Gomez and Caldas-Guevara
were arrested: a 2005 Hummer; a 2007 Chevrolet

51a

Tahoe; and an older model Chevrolet Suburban.
Two of these vehicles were later spotted by other
agents at an apartment complex where DuranGomez's half-sister resided, Judith Arely Lopez.
Correspondingly, a photograph of Judith Lopez
was shown to a neighbor of Duran-Gomez's, who
affirmatively identified her as present at DuranGomez's residence on Thanksgiving Day, November 23, 2006. After obtaining a search warrant for Judith Lopez's apartment, agents found
it abandoned and stripped of all furnishings.
On November 29, 2006, an ICE special agent began listening to transcripts of telephone calls
placed by Duran-Gomez while he was confined
in an ICE detention facility. Duran- Gomez
placed two calls to his mother, Florencia Lopez,
on Thanksgiving Day (November 23, 2006). In
the first call, placed at approximately 4:05 p.m.,
Florencia Lopez was in the presence of Yvette
Aragon (Duran-Gomez's former girlfriend), Judith Lopez, and Luis LNU (Judith Lopez's boyfriend). During this call, Duran-Gomez is heard
to tell his mother and the others to get
" ... paperwork, documents, t he list, and the computer out of the house office." In addition, Duran-Gomez states they should not open "la caja",
the translation of which is a box or safe. In the
second call, Florencia Lopez advised DuranGomez that she and Judith Lopez had obtained
the items and she (Florencia Lopez) would "keep
all the stuff' for Duran-Gomez. It was also subsequently determined Yvette Aragon was in possession of a blue bag. During the aforementioned
conversation, Duran-Gomez inquired if "it had
been counted together." He then instructed

52a

Florencia Lopez that she, Judith Lopez, and
Yvette Aragon should " ...count it together."
Agents ultimately knocked on the door of Florencia Lopez's apartment and were invited in.
Both Florencia Lopez and Judith Lopez, who
was persuaded to come to her mother's apartment, gave Mirandized statements and led
agents to a storage facility where, among other
things, agents found boxes of Duran-Gomez's
business records, computer components, and two
firearms.
On November 30, 2006, Judith Lopez was interviewed by ICE special agents. According to Judith Lopez, following Duran-Gomez's arrest on
November 21, 2006, he contacted his mother's
home number on November 22, 2006. A three
way conversation was conducted, in which Duran-Gomez asked them to remove the computer
and all documents from his home office. While
talking to his wife, Yvette Aragon, DuranGomez made reference to a "cuete", or firearm.
In response, Florencia Lopez, Yvette Aragon,
Judith Lopez and Luis LNU, traveled to DuranGomez's home, retained the services of a locksmith to open the door, and removed the requested items from the home. On November 25,
2006, Judith Lopez rented a storage facility to
keep the items belonging to Duran-Gomez.
In ensuing conversations with Duran-Gomez between November 25 and 27, 2006, Judith Lopez
repeatedly suggested destroying the items at the
storage facility and contemplated throwing the
guns into a bayou. Duran-Gomez, however, told
her he did not want these items destroyed. Du-

53a

ran-Gomez later informed Yvette Aragon as to
the location of his cash. Aragon, in turn, informed Judith Lopez, who subsequently found a
blue bank bag containing approximately $35,900.

Continuing the interview on November 30, 2006,
Judith Lopez then recounted to agents an event
which had occurred on November 15, 2006, when
Duran-Gomez had contacted her telephonically,
then come to her apartment. During their conversation, Duran-Gomez instructed her to watch
the television news, which was carrying the story
of the two corpses which had been discovered in
the stolen pickup truck in Richmond, Texas. As
they watched the story, Duran-Gomez informed
Judith Lopez that he and two accomplices had
beaten four people at the Ashcroft warehouse,
because they had started a fire in an effort to escape. According to Judith Lopez, she had then
telephoned their mother to ask her to come over,
so that she could explain what Duran-Gomez
had done. Duran-Gomez went on to relate that
two of the men at the warehouse had later created a plan to kill one of Duran-Gomez's accomplices. Duran-Gomez claimed he had not been
there when this information was obtained, and
his accomplice who had been threatened had
beaten the two men. Judith Lopez believed those
two men may have been the corpses which were
found.
On April 15, 2007, ICE agents interviewed Pedro
Portillo and Abraham Melendez, to discuss their
accounts of illegally entering the United States,
and ensuing detention in a Houston, Texas, drop
house. Portillo was re-interviewed on January 23,

54a

2008. Melendez was re- interviewed on January
24, 2008.
Both Portillo and Melendez began their journey
in El Salvador in October 2006. After passing
through Guatemala into Mexico, they boarded a
train which took them to the United States border, near Hidalgo, Texas. While on that train,
they met four Honduran Nationals: Freddy
LNU, Jose LNU, Hector LNU, and Abelardo
Sagastume. Later, while walking in the border
area, they met a smuggler named El Perro, who
offered to deliver Portillo and Melendez into the
United States for $1,600 each. On October 31,
2006, Portillo and Melendez joined a group of
approximately 30 aliens who were brought across
the Rio Grande on a raft, and they disembarked
into the United States. The four Hondurans were
in that raft with them.
After arriving in the United States, the group
walked for approximately 15 minutes through a
cornfield, after which 12 of the aliens were put
into a pickup truck and driven to a drop house in
McAllen. They had remained there for approximately four days, when they were loaded again
into a pickup truck, some covered by a tarp in
the bed, and driven for approximately one-half
hour. When they were let out, they were directed
through the brush by guides for approximately
21 hours. Upon emerging, they were picked up
again and driven to Houston, and they were taken to the Ashcroft warehouse. After being
brought to a room inside the building, the aliens
were directed by a guard named "Pelon" to undress to their underwear and place their clothes
in a bag. Portillo and Melendez were placed in a

55a

detention room, where they slept until the following day, November 6, 2006.
The evening of November 6, 2006, Hector LNU,
one of the Honduran Nationals they had previously traveled with, entered their detention
room. Hector indicated he had been kept at the
warehouse for six days, and that he was hungry
and desperate to leave. He related his thoughts
of starting a fire as a means of escaping, and
asked the others for their assistance. The group
discouraged him from acting, as Felon had children staying in the building, and Hector subsequently agreed not to do anything. Hector explained he was being kept in another room across
the building, and returned there. Before leaving,
Hector remarked there was another male in his
room that had been at the warehouse for 40 days.
On November 7, 2006, Portillo recalled being
awakened at approximately 6:00 a.m. by shouts
of "Fire!" At that time, Felon and another guard
named El Chino brought all of the aliens to the
garage, where they were loaded into two vans.
Two of the Hondurans, Hector and Abelardo,
were in the van with Portillo and Melendez.
While driving, El Chino was overheard informing
Felon of his intentions to investigate the fire, and
it subsequently became clear that he suspected
Hector and Freddy LNU. On the date of the fire,
only seven aliens remained in the warehouse:
Portillo, Melendez, the four Hondurans, and a
Guatemalan male named Espinoza-Diaz. After
the fire, all of the aliens but Espinoza-Diaz were
returned to the same detention room in the
warehouse. El Chino and Felon first took Hector

56a

for interrogation, then returned shortly afterward for Freddy.
After Hector and Freddy were taken away, Portillo heard moans and groans coming from the
garage. He also indicated that it sounded as if
they were being hit with a stick. About five
minutes after Freddy was taken to the garage,
both Portillo and Melendez heard a gunshot.
Pelon returned to the detention room, and advised the others, "This is getting hot. Any of you
who knew what was going on better talk or you'll
be beaten equally." Pelon then took Melendez to
the garage. Hector and Freddy were in the garage, along with El Chino and an individual later
identified as Duran-Gomez. According to
Melendez, El Chino and Duran- Gomez were
beating Hector and Freddy, who both had marks
on their backs, arms, and stomachs. A broken
broomstick was lying on the floor next to Freddy. Duran-Gomez was observed kicking Hector,
and had a firearm in his waistband.
Melendez, Hector, and Freddy were next directed to return to the detention room. El Chino
entered and instructed all of the aliens to remove
their underwear. Duran-Gomez then instructed
El Chino to tie everyone up, and two cooks present in the warehouse assisted by tying everyone's hands behind their backs with shoelaces.
After their hands were tied, the aliens were
placed face down on the floor. Duran-Gomez
then began beating Hector again, along with admonishments to tell the truth. Duran-Gomez
next decided to shave the aliens heads and eyebrows, in an uneven, patchy manner. Abelardo,
however, elected to be beaten rather than be

57a

shaved. In response, Duran-Gomez kicked him
in the abdomen. During this time frame, all of
the aliens were beaten, and Portillo and other aliens were stomped on by Duran-Gomez. Neither
Portillo or Melendez observed Pelon beat anyone. At approximately 10:00 p.m., Pelon instructed the cooks to untie everyone. At some point between November 7 and 8, 2006, two Hondurans
were removed after their fees were paid.
The following day, November 8, 2006, the beatings resumed at approximately 11:00 a.m. The aliens were still nude, and their hands were again
tied behind their backs. Five aliens remained,
consisting of Portillo, Melendez, Hector, Abelardo, and Victor Espinoza. Hector eventually confessed to starting the fire. Portillo and Melendez
indicated that Duran- Gomez used a broomstick
to sodomize Hector until he bled from his rectum, then forced Hector to lick fecal matter from
the broomstick. El Chino later asked Hector why
he had set the fire. Hector responded that he was
desperate. According to Melendez, Pelon related
to him that Hector's family had paid his entire
smuggling fee, but he was being forced to remain
at the warehouse as punishment. He would be allowed to leave when his health improved.
Portillo and Melendez recalled that on November
9, 2006, El Chino had become very intoxicated
and began beating Hector. He had stomped on
his back, and also struck him in the back of the
head with a firearm until he bled. According to
Portillo and Melendez, while all of the aliens
were beaten, Hector was targeted more than the
others. During the beatings, the aliens were
warned not to look, nor were they allowed to

58a

speak, on penalty of further beatings. On November 10, 2006, further beatings were administered by El Chino and Duran-Gomez. On November 11, 2006, an incident occurred during
which El Chino came into the detention room and
sprayed perfume on Hector's back. El Chino
then lit the perfume on fire, burning the skin off
and leaving raw flesh. On this same date, another
group of aliens were delivered to the warehouse,
and placed in a separate room.
By this time, Portillo and Melendez recalled that
Hector's face was swollen, there were bruises
near his right eye and on his back and arms, and
he had a blood bruise on the back of his head.
Portillo advised he had swelling around his own
left cheek and eye, and there were scratches on
his right cheek from being dragged along the
carpet. In addition to the aforementioned tactics
used during the beatings, Portillo advised Duran-Gomez was known to stomp on various alien's ankles and hands. He recalled one occasion
when Hector was sodomized with a beer bottle
by El Chino.
On November 12, 2006, Felon informed the aliens
they would each be allowed a phone call to contact family members. They were told to notify
their family that they were being beaten and that
if the smuggling fee was not satisfied promptly,
they would be killed. \Vhile Portillo made his call,
he was struck in the head. Felon ordered one of
the aliens to strike the callers while they were
each on the telephone. Later that day, DuranGomez instructed the cooks to tie the aliens'
hands behind their backs while they laid on their
stomachs. In response to a comment by Melen-

59a

dez, Duran-Gomez stomped on his back approximately eight times. Duran-Gomez also fired a
gunshot into the floor between the heads of
Melendez and Hector. Aside from Espinoza, all
of the aliens were beaten that day.
On November 13, 2006, Melendez was brought
into the detention room by Duran-Gomez, who
had become angered that Pelon had moved him
to another room. After directing Melendez to
strip naked, his hands were bound behind his
back and a bag was tied over his head. He was
then stood against the wall, and Duran-Gomez
punched him in the forehead. Melendez fell to
the ground, bleeding from his forehead and lip.
Duran-Gomez stated that he felt calmer, because he had seen blood that day. That same
morning, Hector and Abelardo began making
plans to escape. Pelon became aware of this plan,
and El Chino tied up Hector and Abelardo. They
were placed on the floor face down and whipped
with an extension cord, and also beaten with a
broomstick until it broke. Melendez was brought
into the room by Duran-Gomez, and he was also
beaten and whipped by both El Chino and Duran-Gomez. Portillo was whipped and beaten by
El Chino, and kicked in the face by DuranGomez. Approximately 30 minutes after the
beatings, Pelon arrived and moved Melendez and
Portillo from the detention room.
While Melendez and Portillo were in the other
room, Espinoza was overheard by Melendez informing Pelon of new plans by Hector and Abelardo to escape. Espinoza reported they had told
him if he did not assist them they would beat him
to death with a metal pipe they had found. Af-

60a

terward, Melendez could hear Abelardo and Hector being beaten. According to Melendez, DuranGomez arrived at approximately 11:00 p.m., and
was informed by Pelon and El Chino of the escape plan. Duran-Gomez responded that, "[if
they were planning on escaping] those sons of
bitches don't want to live." Instructions were
then given to place bags over the heads of Hector
and Abelardo. Melendez then heard more moans
and groans, and the sounds of beatings rendered
with a stick. Melendez stated his belief that Abelardo died early on, because he could hear only
the suffering of one person. He added that, at the
time he and Portillo were removed from the detention room, Abelardo was extremely weakened, and had to be assisted to the bathroom by
Espinoza. Melendez recalled the beatings lasted
approximately one hour, and the moans and
groans weakened until there was silence. He
then overheard an unidentified voice indicate
Hector had died.
Following the aforementioned beatings, Portillo
and Melendez never saw Hector or Abelardo
again. On approximately November 19 or 20,
2006, they were both released and left Houston.
On November 29, 2006, ICE agents interviewed
Victor Espinoza-Diaz to discuss his account of illegally entering the United States, and ensuing
detention in the Ashcroft warehouse. EspinozaDiaz was re-interviewed on January 23, 2008. In
these interviews, Espinoza-Diaz corroborates the
information provided by Melendez and Portillo.
He advised that Hector and Abelardo had approached him for assistance with their escape
plan. They had asked him to distract Pelon so

61a

that they could go to the kitchen for a knife and
to the bathroom for a stick, -with the intention of
killing Pelon in order to escape. Espinoza-Diaz
declined, however, to assist them, and informed
Pelon of the plan. He did so because Hector and
Abelardo had threatened to kill him if he did not
help them. \Vb.en Espinoza-Diaz was moved to
another room, he heard Duran-Gomez call out
for the bags which were placed over the heads of
Hector and Abelardo.
According to Espinoza-Diaz, when the police arrived at the warehouse, only he and two other aliens were present. After being taken to an ICE
detention facility, he came in contact with Duran-Gomez at the institution's clinic. At that
time, Duran-Gomez asked him if he had selected
Duran-Gomez from a lineup. When EspinozaDiaz responded affirmatively, Duran-Gomez
asked why. Espinoza-Diaz then asked DuranGomez why he had beaten Espinoza-Diaz and
the others, and why he had killed the two men in
spite of their pleas for themselves and their children. When a guard appeared, the conversation
ended. Espinoza- Diaz informed agents he continued to be in fear of Duran-Gomez and his associates, and was concerned about the danger to
himself and his family.
On December 7, 2007, Judith Lopez was again interviewed by ICE agents, with her attorney present. During this interview, she revised her earlier statements to agents, made on November 30,
2006. During the second interview, Judith Lopez
indicated that when Duran- Gomez had come to
her apartment, he acknowledged having beaten
seven people at the Ashcroft warehouse with a

62a

golf club. As a result of those beatings, two of the
men had died. She further advised that DuranGomez had once commented to her, " .. .it's either
me or them... "
Following the aforementioned beatings, Portillo
and Melendez never saw Hector or Abelardo
again. On approximately November 19 or 20,
2006, they were both released and left Houston.
On November 29, 2006, ICE agents interviewed
Victor Espinoza-Diaz to discuss his account of illegally entering the United States, and ensuing
detention in the Ashcroft warehouse. EspinozaDiaz was re-interviewed on January 23, 2008. In
these interviews, Espinoza-Diaz corroborates the
information provided by Melendez and Portillo.
He advised that Hector and Abelardo had approached him for assistance with their escape
plan. They had asked him to distract Pelon so
that they could go to the kitchen for a knife and
to the bathroom for a stick, with the intention of
killing Pelan in order to escape. Espinoza-Diaz
declined, however, to assist them, and informed
Pelon of the plan. He did so because Hector and
Abelardo had threatened to kill him if he did not
help them. "When Espinoza-Diaz was moved to
another room, he heard Duran-Gomez call out
for the bags which were placed over the heads of
Hector and Abelardo.
According to Espinoza-Diaz, when the police arrived at the warehouse, only he and two other aliens were present. After being taken to an ICE
detention facility, he came in contact with Duran-Gomez at the institution's clinic. At that
time, Duran-Gomez asked him if he had selected

63a

Duran-Gomez from a lineup. When EspinozaDiaz responded affirmatively, Duran-Gomez
asked why. Espinoza-Diaz then asked DuranGomez why he had beaten Espinoza-Diaz and
the others, and why he had killed the two men in
spite of their pleas for themselves and their children. When a guard appeared, the conversation
ended. Espinoza- Diaz informed agents he continued to be in fear of Duran-Gomez and his associates, and was concerned about the danger to
himself and his family.
On December 7, 2007, Judith Lopez was again interviewed by ICE agents, with her attorney present. During this interview, she revised her earlier statements to agents, made on November 30,
2006. During the second interview, Judith Lopez
indicated that when Duran- Gomez had come to
her apartment, he acknowledged having beaten
seven people at the Ashcroft warehouse with a
golf club. As a result of those beatings, two of the
men had died. She further advised that DuranGomez had once commented to her, " .. .it's either
me or them... "
See [Case 4:06-Cr-459, Document 109 at pp. 3-9, June 6,
2008)]. The PSR shows that the Government could have
indicted Duran-Gomez in 2006 or 2007, and could have
proceeded to trial as early as 2008. For reasons known
only to the Government, it chose not to do so. And, while
the Government has no duty to indict at any particular
time, it has a legal and ethical obligation to prosecute
prudently and efficiently while remaining cognizant of
the liberty rights conferred on an accused. See Lovasco,
431 U.S. at 791 [Prosecutors are under no duty to file
charges before they are satisfied that evidence is sufficient.] This duty does not extend to the government the

64a

right to investigate a citizen while detaining him in jail,
essentially, holding him in "limbo" without charges for
tactical advantage or to punish.
C. Post-Indictment Delay
Duran-Gomez also contends that he has been denied a speedy trial under the Act and Sixth Amendment
since the 2010 Indictment. Here, his claims under the
Act and the Sixth Amendment merge into a single claim
and are subject to a Barker analysis. However, the law,
logic and facts that dictated the Court's determination in
the pre-indictment discussion heretofore, also applies
here. Therefore, that determination is incorporated in
this section by reference.
The Government contends that the defense team
[Duran-Gomez's counsel] "resort[ed] to a 'pleading
games' in an attempt to thwart prosecution ... by increasing the delay and cost; and, on no less than 12 occasions has ... requested continuance of the trial dates
or pleading deadlines." For this argument, the Government relies only on Duran-Gomez's motions for continuance as proof that the delay occasioned, has not prejudice him.
The Court is of the opinion that the Government's
reliance on the motions alone does not defeat DuranGomez's prejudice claim. The prejudice commenced during the pre-indictment phase and carried forward.
Hence, the Court finds that the vast majority, if not all,
of the continuances that Duran-Gomez sought were precipitated by the Government's trial strategy of intentional delay. Both the Government and the Court owe an
"affirmative obligation" to a criminal defendant and to
the public to bring matters to trial promptly. United
States v. Black, 918 F .3d 243, 253 (2nd Cir. 2019). Here,

65a

the Government failed and, thereby, successfully frustrated the Court in its duty.
The Government admits that since 2010, the length
of delay in the trial of this case is "presumptively prejudicial". See [Government's Response, Dkt. No. 458 at
p.13]. By this admission, it concedes that delay has been
excessively protracted. Nevertheless, it does not concede that the burden is on it to prove that the delay was
justified and that Duran-Gomez suffered no prejudice.
See Doggett, 505 U.S. at 656-58; see also SernaVillarreal, 352 F .3d 231.
The Court is of the view that the Government has
not satisfied its burden by simply pointing to continuances sought by Duran-Gomez. This argument does not
satisfy the Barker or Serna-Villarreal, requirements.
Case law dictates that the Government establish that
the "presumption of prejudice" is extenuated, or is otherwise rebutted by evidence. The fact that continuances
were sought and granted is simply not determinative.
Something more is required of the Government. See
Black, 918 F.3d at 254. What is required is evidence that
shows that the Government's conduct did not artfully
and strategically engineer Duran-Gomez into positions
where he, of necessity, sought continues. See [Dkt. No.
499, Supplemental Memorandum]. The record shows
that, in fact, it did. The Government cannot rely on its
own mischief as a defense to Duran-Gomez's speedy trial rights while claiming no prejudice.
Indeed, the record shows that the Government did
not obtain an NOI concerning Duran-Gomez until September 9, 2012, after the case had been set for trial on
numerous occasions. Specifically, the Court had set the
cases for trial on seven occasions: December 14, 2010,
April 26, 2011, August 23, 2011, November 29, 2011,

66a

February 28, 2012, May 1, 2012, and November 13, 2012.
The filing of an NOI appreciably changed the trial landscape in ways not previously contemplated. Those continuances were based on the fact that the Government
had not provided discovery, even though it claimed an
open file. It used those continuances to strike plea
agreements with other defendants while withholding
trial evidence that Duran-Gomez was due for trial preparation. As a result, the Court concludes that even
though the Government announced in 2007 that it was
going to seek the death penalty as to Duran-Gomez, and
that it was ready for trial in 2013, it was not prepared to
try the case. By 2013, the government had provided limited discovery to Duran-Gomez, most, if not all of which
was delivered on or about April 20, 2011. This disclosure, however, amounted to less than 14% of its discovery obligation. Subsequent disclosures reveal that substantial documents and reports were in the Government's possession in 2011. While, it claimed to be operating under an "open file policy" and openly stated to
the Court "everyone would be on the same page from a
discovery perspective" it was not operating with candor
or honesty.
This conduct did not go unnoticed by Duran-Gomez
as suggested by the Government. At the time, counsel
asserted that his client's ability to get a fair trial was being impacted by the Government's tactics. See [PH
Conf. (10.11.12), pp. 6-12]. However, the Government's
did not stop with its lack of candor with regard to discovery. After the case was again set for trial on April 23,
2013, notice of the arrest of Rodriguez-Mendoza was
disclosed. His arrest ushered in a new and protracted
period of delay at the behest of the Government. The
Government's previous announcement that DuranGomez would be the only death penalty qualified de-

67a

fendant going to trial prompted the Court to set the case
for trial. Nevertheless, the government changed its
mind, insisting on one capital trial that would include
Rodriguez-Mendoza. Learning of this fact, the Court
encourage a severance of Rodriguez-Mendoza and all
non-capital defendants from Duran-Gomez's trial. The
Government rejected this opportunity and announced
that it would be seeking an NOi as to RodriguezMendoza in order that it could have a single trial. See
[PH Conf. (5.28.13) pp. 7-13].
Although, the Government was insisting on a single
trial, it did not seriously move forward to obtain an NOi
as to Rodriguez-Mendoza. Instead it sought a four-week
delay to decide how it did handle Rodriguez-Mendoza
even though the government had made it clear that it
was going to seek the death penalty against him. That
four week delay lasted almost four years to February
10, 2017. In the meantime, the Government engaged in
plea bargaining with Rodriguez-Mendoza and sought to
resolve whether his intellectual IQ was too low be tried
under the Death Penalty Act. 14 Dutifully, the Court continued to set the case for trial based on representations
by the Government as to when it would be ready for trial.
The government's dilemma is laid bare at the
Court's July 29, 2015, conference. The Government announced that it was " ... in somewhat of a limbo ... " It
had not obtained an NOi as to Rodriguez-Mendoza and

14 On August 5, 2015, after the Court ordered the Government to "seek or not" an NOI as to Rodriguez-Mendoza, it informed the Court that it would do so by September 15, 2015. It did
not, and again sought an extension.

68a

was not ready to try the case. With little warning, the
prosecution team was replaced on December 17, 2015.
The new team promptly announced ready for trial.
However, it had no NOI as to Rodriguez-Mendoza and
continued to insist on a single trial. All the time, DuranGomez's counsel continued to complain about the ineffectiveness of the "open file" policy. According to counsel, critical evidence had not been disclosed.
This long delay by the Government has been prejudicial and cannot be articulated with specificity and precision. Nevertheless, the Court is of the opinion that Duran-Gomez cannot nor should he be required to do so
since events between 2010 and 2017 were under the
Government's control. Hence, the Court is left to conclude that, at the outset, the delay was intentional, designed to gain some tactical advantage, and not in the
interest of justice. Marion, 404 U.S. at 325 (1971). The
record of Court proceeding since 2006, speaks loudly
and clearly that Duran-Gomez's speedy trial rights have
been violated and that he has been irreparable prejudiced. The Government's prosecutorial policy has had a
discriminatory impact. See United States v. Armstrong~
517 U .s. 456, 465 (1996).
The Government also asserts that Duran-Gomez
failed to consciously seek a speedy trial. Therefore, he
cannot now claim prejudice. In the Court's view, presuming waiver of a fundamental right based on "inaction
is inconsistent with [the Supreme Court's] pronouncements on waiver of Constitutional rights." Barker, 407
U.S. at 525. In fact, the delays in this case up to January
30, 2017, must be attributed to the Government because
it was then that the vast majority of discovery was finally delivered to Duran-Gomez. Even then, the Government acknowledged that other discovery would be forthcommg.

69a

The effect of the Government's conduct has been to
punish Duran-Gomez15 . His arrest, pretrial detention
and unnecessary criminal prosecution for obstruction,
speaks loudly concerning the Government's motivations.
See Bigler, 810 F.3d at 1323 (5th Cir. 1987). It has offered no explanation why it took four years to indict Duran-Gomez or the additional seven years to provide him
with discovery that has been in the Government's hands
since 2006-07.
The provision of the Act and the Sixth Amendment
do not abide such conduct. The Court is of the opinion
that the delay in this case is so excessive that it has presumptively "compromise[d] the reliability of a trial in a
way that [Duran-Gomez] [cannot] prove, or for that matter, identify." Doggett, 505 U.S. at 655. This conclusion
is necessary, in part, because the Government has not
handled this case in a systematic and conventional manAlthough Duran-Gomez has not raised the issue of double
jeopardy, the Court sua sponte raises the issue pursuant to Illinois
v. Vitale, 447 U.S. 410 (1980). There, the Supreme Court addressed
the guarantees afforded an accused under the Fifth Amendment to
the federal Constitution. Directing our attention to North Carolina
v. Pearce, 395 U.S. 711, 717 (1969), the Supreme Court stated that
"[t]he constitutional prohibition of double jeopardy ... protects
against multiple punishments for the same offense." Id. at 415.
15

While the offense conduct in the case at bar is not the
"same offense" conduct described in the obstruction case, the Government precipitously injected its immigration investigation materials into it. The result of this wanton conduct was to enhance Duran-Gomez's punishment far above that of the ordinary obstruction
case. The effect was to punish him for unadjudicated conduct - conduct that is yet to be tried to a jury. The "Due Process" clause protects criminal defendants against conduct that punishes unadjudicated conduct, in particular, where the conduct alleged is the subject of an ongoing prosecution.

70a

ner, along the lines of "fair play and decency". By all accounts, the Government's delay has been and continues
to be oppressive and unjustified. See Dickey v. Florida,
398 U.S. 30, 51-52 (1970).
The Court has thoroughly considered the Government's evidence and argument against dismissal of the
Indictment and, accordingly, finds that the evidence and
argument are lacking and disagreeable with regard to
the Act, the Sixth Amendment and Fifth Amendment
"due process" principles. Hence, the integrity, efficiency
and centrality of the rule of law and good conscience dictates dismissal. In view of the analysis and discussion
concerning both pre-indictment and post-indictment delay, the Court finds actual prejudice and HOLDS that
the 2017 Superseding Indictment be, and it is hereby,
DISMISSED with Prejudice. Barker, 407 U.S. at 522.
It is so ORDERED.
SIGNED on this 12th day of March, 2020.

Kenneth M. Hoyt
United States District Judge

71a

APPENDIXC
1. The Sixth Amendment to the Constitution pro-

vides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.

2. 8 U.S.C. § 1324(a)(l)(A)-(B) provides:

(a) Criminal penalties
(l)(A) Any person who-(i) knowing that a person is an alien, brings to or

attempts to bring to the United States in any
manner whatsoever such person at a place other
than a designated port of entry or place other
than as designated by the Commissioner, regardless of whether such alien has received prior official authorization to come to, enter, or reside in
the United States and regardless of any future
official action which may be taken with respect to
such alien;
(ii) knowing or in reckless disregard of the fact
that an alien has come to, entered, or remains in
the United States in violation of law, transports,

72a

or moves or attempts to transport or move such
alien within the United States by means of transportation or otherwise, in furtherance of such violation of law;
(iii) knowing or in reckless disregard of the fact
that an alien has come to, entered, or remains in
the United States in violation of law, conceals,
harbors, or shields from detection, or attempts to
conceal, harbor, or shield from detection, such alien in any place, including any building or any
means of transportation;
(iv) encourages or induces an alien to come to,
enter, or reside in the United States, knowing or
in reckless disregard of the fact that such coming
to, entry, or residence is or will be in violation of
law; or
(v)(I) engages in any conspiracy to commit any of
the preceding acts, or
(II) aids or abets the commission of any of the
preceding acts,
shall be punished as provided in subparagraph (B).
(B) A person who violates subparagraph (A) shall,
for each alien in respect to whom such a violation occurs-(i) in the case of a violation of subparagraph (A)(i)
or (v)(I) or in the case of a violation of subparagraph (A)(ii), (iii), or (iv) in which the offense was
done for the purpose of commercial advantage or
private financial gain, be fined under Title 18, imprisoned not more than 10 years, or both;

73a

74a

75a

76a

